VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                    National Cemetery 

                                                                     Administration 

                                                                           Audit of 

                                                                        Rural Veterans 

                                                                        Burial Initiative 





                                                                                              July 14, 2014
                                                                                              13-03468-203

               ACRONYMS AND ABBREVIATIONS

FY             Fiscal Year
NCA            National Cemetery Administration
NVBG           National Veterans Burial Ground
OIG            Office of Inspector General
VA             Veterans Affairs
VetPop         Veteran Population Projection Model




         To Report Suspected Wrongdoing in VA Programs and Operations: 

                              Telephone: 1-800-488-8244 

                             Email: vaoighotline@va.gov

                   (Hotline Information: www.va.gov/oig/hotline) 

                   Report Highlights: Audit of NCA’s
                   Rural Veterans Burial Initiative

Why We Did This Audit                           evaluated     NCA’s      progress     towards
                                                increasing service to rural veterans.
Public Law 113-6, Consolidated and Further
Continuing Appropriations Act of 2013,          As a result, NCA cannot evaluate the level
required     VA’s     National     Cemetery     of service provided to veterans and their
Administration     (NCA)       to    address    families residing in rural areas throughout
Congressional concerns that NCA does not        the eight targeted states and the entire
adequately serve the Nation’s rural veterans.   Nation. Without this veteran population
We evaluated whether NCA’s Rural                information, NCA cannot adequately report
Veterans Burial Initiative (Rural Initiative)   to Congress, and other stakeholders, its
identifies the number and percentage of         performance on serving rural veterans.
unserved veterans in rural areas.
                                                What We Recommended
What We Found
                                                We recommended the Under Secretary for
NCA’s Rural Initiative does not adequately      Memorial Affairs establish a methodology
identify the number and percentage of           to identify the number and percentage of
veterans residing in rural areas who do not     served and unserved rural veterans, publish
have reasonable access to a burial option.      a national map showing the areas and
We determined that prior to the planned         number of served and unserved rural
Rural Initiative National Veterans Burial       veterans, and establish performance goals
Grounds, NCA was not providing                  for the percentage of rural and urban
reasonable access to a burial option for        veterans served.
approximately 302,000 (34 percent) of about
888,000 rural veterans in the initiative’s      Agency Comments
8 targeted states. When completed, NCA’s
Rural Initiative is expected to decrease the    The Under Secretary concurred with the
total number of unserved rural veterans by      recommendations and submitted acceptable
nearly 120,000 (40 percent) to about            corrective action plans. We will follow up
182,000 in these 8 states.                      on implementation of the corrective actions.

NCA could not adequately identify the
number and percentage of unserved veterans
who reside in rural areas because it uses a
methodology that identifies veterans
residing within a 75-mile radius of a
                                                           LINDA A. HALLIDAY
National, VA-funded State or tribal
                                                       Assistant Inspector General
organization veterans’ cemetery and does
                                                        for Audits and Evaluations
not classify veterans as rural, urban, or any
other designation. In addition, NCA lacked
a specific performance measurement that
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 

    Finding                NCA’s Rural Initiative Needs to Identify the Number and Percentage of 

                           Rural Veterans Needing Burial Options .............................................................2
 

                           Recommendations .............................................................................................. 7
 

Appendix A                 Background ........................................................................................................ 8
 

Appendix B                 Scope and Methodology..................................................................................... 9
 

Appendix C                 Geographical Analyses of Rural Veterans Served and Unserved .................... 10
 

Appendix D                 Under Secretary for Memorial Affairs Comments........................................... 17
 

Appendix E                 Office of Inspector General Contact and Staff Acknowledgments .................. 23
 

Appendix F                 Report Distribution........................................................................................... 24
 
                                                            Audit of NCA’s Rural Veterans Burial Initiative



                    INTRODUCTION
Objective           We conducted this audit to evaluate whether the National Cemetery
                    Administration’s (NCA) Rural Veterans Burial Initiative (Rural Initiative)
                    identifies the number and percentage of unserved veterans in rural areas.

Rural Veterans      In September 2011, NCA established the Rural Initiative to improve burial
Burial Initiative   access for veterans residing in rural areas. The Rural Initiative targeted
                    states that lack a National cemetery with available space for initial burials.
                    In the targeted states, the Rural Initiative focused on areas unserved by State
                    or tribal organization veterans’ cemeteries funded by the VA or National
                    cemeteries in a bordering state. The Rural Initiative is expected to establish
                    a National cemetery presence in rural areas of 8 states where the veteran
                    population is less than 25,000 within a 75-mile radius of proposed National
                    Veterans Burial Ground (NVBG) locations. Table 1 shows the planned
                    NVBG locations.

                                  Table 1. Planned Locations for National Veterans 

                                                  Burial Grounds


                                 1. Twin Falls, ID                5. Fargo, ND
                                 2. Calais, ME                    6. Cedar City, UT
                                 3. Laurel, MT                    7. Rhinelander, WI
                                 4. Elko, NV                      8. Cheyenne, WY
                                 Source: NCA’s Rural Initiative

Public Law          Public Law 113-6, Consolidated and Further Continuing Appropriations Act,
113-6               dated March 26, 2013, required NCA to address Congressional concerns that
                    the Nation’s rural veterans are not adequately served. For example, concerns
                    included identifying the number of and geographic areas where rural
                    veterans are unserved, assessing gaps in service between rural and urban
                    veterans, recommending appropriate policy on new National cemeteries to
                    serve rural areas, and developing a national map showing number and areas
                    of unserved veterans. This Act also required the VA Secretary to provide a
                    strategy with proposed policies and an implementation time frame to address
                    concerns within 180 days of when Congress enacted the law. In addition, the
                    Act required the Government Accountability Office to certify that NCA’s
                    strategy addresses Congressional concerns.

Other                  Appendix A provides pertinent background information.
Information
                       Appendix B provides details on our scope and methodology.
                       Appendix C shows state maps analyzing rural veterans.



VA Office of Inspector General                                                                           1
                                                       Audit of NCA’s Rural Veterans Burial Initiative



                    RESULTS AND RECOMMENDATIONS
Finding             NCA’s Rural Initiative Needs to Identify the Number and
                    Percentage of Rural Veterans Needing Burial Options

                    NCA’s Rural Initiative does not adequately identify the number and
                    percentage of veterans residing in rural areas who do not have reasonable
                    access to a burial option. We determined that prior to the planned Rural
                    Initiative NVBGs, NCA was not providing reasonable access to a burial
                    option for approximately 302,000 (34 percent) of about 888,000 rural
                    veterans in the initiative’s 8 targeted states. When completed, NCA’s Rural
                    Initiative is expected to decrease the total number of unserved rural veterans
                    by nearly 120,000 (40 percent) to about 182,000 in these 8 states.

                    NCA could not adequately identify the number and percentage of unserved
                    veterans who reside in rural areas because it uses a methodology that
                    identifies veterans residing within a 75-mile radius of a National, VA-funded
                    State or tribal organization veterans’ cemetery and does not classify veterans
                    as rural, urban, or any other designation. In addition, NCA lacked a specific
                    performance measurement that evaluated NCA’s progress towards increasing
                    service to rural veterans. As a result, NCA cannot evaluate the level of
                    service provided to veterans and their families residing in rural areas
                    throughout the eight targeted states and the entire Nation. Without this
                    specific veteran population information, NCA cannot adequately report to
                    Congress, and other stakeholders, its performance on serving rural veterans.

Unserved            In Public Law 113-6, Congress expressed concerns that NCA was not
Veterans Not        adequately serving rural veterans. The public law required NCA to address
Identified
                    several Congressional concerns about rural veterans, such as identifying the
                    number of, and geographic areas where rural veterans are unserved.

                    Our analysis of fiscal year (FY) 2013 Veteran Population Projection Model
                    (VetPop) data determined that before completion of the planned NVBGs,
                    NCA did not provide reasonable access to a burial option for about
                    34 percent of rural veterans in the eight states. Appendix A provides
                    additional information about VetPop. The unserved rural veteran population
                    ranged from about 9,400 in Maine to about 62,100 in Wisconsin. The
                    establishment of NVBGs is expected to decrease the total number of rural
                    veterans in these 8 states who do not have reasonable access to a burial
                    option from approximately 302,000 to about 182,000. However, for these
                    remaining unserved veterans outside the planned NVBG service areas, NCA
                    could not adequately identify the number and percentage of these rural
                    veterans.

                    Our analysis found that once NCA completes the NVBGs, the number of
                    unserved rural veterans in the 8 states is expected to range from zero in


VA Office of Inspector General                                                                      2
                                                            Audit of NCA’s Rural Veterans Burial Initiative


                     Maine to about 43,600 in Wisconsin. In addition, the percentage of unserved
                     rural veterans is expected to decline to about 20 percent. Table 2 provides
                     our analysis of rural veterans unserved before and after completion of NCA’s
                     Rural Initiative.

                    Table 2. Rural Veterans in NCA’s Eight Targeted States
                                        Veterans                Veterans               Veterans
                       Rural
         State                       Unserved Before            Served By            Unserved After
                      Veterans
                                        Initiative              Initiative             Initiative
   Idaho               103,881         48,485       (47%)    13,547      (28%)       34,938      (34%)
   Maine               127,694          9,441        (7%)     9,441     (100%)             0       (0%)
   Montana             101,594         50,382       (50%)    17,967      (36%)       32,415      (32%)
   Nevada               38,369         9,505        (25%)     4,934      (52%)        4,571      (12%)
   North Dakota         56,211         43,502       (77%)    20,471      (47%)       23,031      (41%)
   Utah                100,639         31,396       (31%)    15,491      (49%)       15,905      (16%)
   Wisconsin           302,674         62,062       (21%)    18,459      (30%)       43,603      (14%)
   Wyoming              56,517         47,119       (83%)    19,864      (42%)       27,255      (48%)
     Total             888,000       302,000        (34%)   120,000      (40%)     182,000       (20%)
   Source: VA OIG analysis of FY 2013 VetPop data
   Note: Totals rounded for report presentation.

Post-Initiative -    We used NCA’s 75 mile radius methodology for identifying served rural
Significant          veterans in the eight targeted states. To identify the unserved rural veterans,
Number of
Rural Veterans
                     we used NCA’s veteran population threshold of less than 25,000 to classify
Remain               counties as rural, and considered populations of 25,000 and over as urban.
Unserved             We then totaled the number of veterans residing in rural counties and
                     identified the total and percentage of unserved rural veterans for each of the
                     eight states.

                     Our analysis identified approximately 302,000 unserved rural veterans before
                     the establishment of NVBGs. After the completion of the NVBGs, we
                     determined about 182,000 rural veterans would remain unserved. However,
                     NCA’s methodology did not allow NCA to identify about 182,000 veterans
                     who would remain unserved in rural areas after completing the Rural
                     Initiative. NCA officials agreed our methodology was one possible approach
                     for identifying the number and percentage of unserved veterans residing in
                     rural areas. For each of the targeted states, we developed maps to analyze
                     the number of veterans in served and unserved counties before and after
                     NCA’s Rural Initiative.




VA Office of Inspector General                                                                            3
                                                           Audit of NCA’s Rural Veterans Burial Initiative


Nevada              We determined of the approximately 38,400 rural veterans residing in
                    Nevada, about 9,500 in 8 counties were considered unserved before the
                    planned NVBG. Figure 1 shows the map for Nevada.

                                       Figure 1. OIG Analysis of NCA Service 

                                      Before and After Rural Initiative—Nevada





                                 State Cemetery            Proposed NVBG                 75-Mile Radius

                                 Served before             Served by Rural               Unserved after
                                 Rural Initiative          Initiative                    Rural Initiative

                                 Urban County              County considered served because
                                                           population center lies within 75-mile radius
                         Note:   1. Counties considered rural unless noted differently
                                 2. Numbers represent county veteran population.

                         Source: VA OIG analysis of FY 2013 VetPop data

                    We also determined the Rural Initiative is expected to increase burial access
                    for about 4,900 unserved rural veterans in Nevada after the completion of the


VA Office of Inspector General                                                                              4
                                                        Audit of NCA’s Rural Veterans Burial Initiative


                    NVBG in Elko, NV. In addition, with the completion of the NVBG, Nevada
                    is expected to have 5 counties with almost 4,600 rural veterans remaining
                    unserved. Appendix C provides maps of the remaining seven targeted states.

Reasons for         Although the completion of NVBGs in these rural locations should decrease
Not Identifying     the unserved veteran population, NCA could not adequately identify the
Unserved
Veterans
                    number and percentage of veterans who would remain unserved in rural
                    areas upon completion of its Rural Initiative. NCA used a methodology that
                    was limited to identifying rural veterans served by a burial option within a
                    reasonable distance of their residence. NCA considered service areas as
                    being rural if less than 25,000 veterans resided within a 75-mile radius of
                    NVBGs.

                    Using NCA’s methodology, to identify the total rural veteran populations
                    within the 8 states for potential NVBG locations, we determined NCA would
                    need to perform the following steps in each of the just over 2,200 towns or
                    cities in 175 counties:

                    	 Identify counties 50 percent or more within a 75-mile radius of the town
                       or city.
                    	 Identify counties less than 50 percent within the 75-mile radius and
                       determine if the population center lies within the radius.
                    	 Identify counties intersected by more than one 75-mile radius and
                       determine if the area covered exceeds 50 percent or more of the county.
                    	 Total the veteran populations for the counties and determine if the total is
                       less than 25,000.

                    While performing these steps, NCA would need to ensure county veteran
                    populations are counted only once in overlapping 75-mile radius areas. For
                    example, our analysis of Montana shows NCA would need to plot a 75-mile
                    radius around approximately 280 towns or cities while identifying
                    overlapping areas and ensuring veteran populations are counted only once.
                    NCA acknowledged this when it reported to Congress that there are an
                    unlimited number of potential service areas that could be analyzed as being
                    rural by simply moving the focal point of the 75-mile radius from one
                    potential town or city to another.




VA Office of Inspector General                                                                       5
                                                            Audit of NCA’s Rural Veterans Burial Initiative


                    Table 3 shows our analysis of the number of towns or cities in unserved
                    counties of the eight targeted states before the Rural Initiative.

                          Table 3. Geographic Areas Lacking Burial Options in NCA’s 

                                   Targeted States Before the Rural Initiative

                                                             Unserved                   Unserved
                                 State
                                                             Counties                  Towns/Cities
                      Idaho                                      30                           368
                      Maine                                        2                          116
                      Montana                                    33                           276
                      Nevada                                       8                          116
                      North Dakota                                40                          521
                      Utah                                        19                          274
                      Wisconsin                                   24                          327
                      Wyoming                                     19                          226
                                           Total                175                         2,200
                     Source: VA OIG analysis of 2013 VetPop and the National Association of Counties data
                     Note: Unserved towns/cities total rounded for report presentation.

Lack of             NCA lacks a specific performance measurement for serving rural veterans.
Performance         Although NCA’s strategic goal of providing a burial option to 96 percent of
Measurement
                    the Nation’s veterans measures the overall progress of providing burial
                    services to all veterans, the goal is not quantifiable or measurable to evaluate
                    the level of service provided to rural veterans. VA’s strategic plan requires
                    the establishment of goals that measure the level of performance to be
                    achieved. Also, the Government Performance and Results Modernization
                    Act of 2010, requires Federal agencies to establish performance goals
                    expressed in an objective, quantifiable, and measurable form. In addition,
                    the Act requires a performance indicator be established to assess the progress
                    of the goal.

                    NCA can report progress toward its strategic target of providing reasonable
                    access to a burial option for 96 percent of the Nation’s veterans. However,
                    NCA’s lack of identifying the veteran population as “rural” or “urban”
                    prevents NCA from being able to adequately report progress towards
                    addressing Congressional concerns about NCA’s service to rural veterans.
                    Without having a specific quantifiable and measurable goal for providing
                    services to rural veterans, NCA cannot adequately identify and report its
                    progress of providing rural veterans reasonable access to a burial option.

                    As a result, NCA cannot evaluate the level of service provided to veterans
                    and their families residing in rural areas throughout the eight targeted states


VA Office of Inspector General                                                                              6
                                                        Audit of NCA’s Rural Veterans Burial Initiative


                    and the entire Nation. Without this specific veteran population information,
                    NCA cannot adequately report to Congress and other stakeholders its
                    performance on serving rural veterans.

Conclusion          NCA needs to establish a methodology that identifies the number and
                    percentages of rural veterans unserved to adequately report to Congress, and
                    other stakeholders, its performance on serving rural veterans. Having the
                    ability to report the population of veterans residing in specific geographic
                    areas of the country will provide NCA sufficient information to evaluate
                    service and take appropriate actions to achieve its performance goals.

                    Recommendations

                    1.	 We recommended the Under Secretary for Memorial Affairs establish a
                        methodology to identify the number and percentage of served and
                        unserved rural veterans throughout the Nation.
                    2.	 We recommended the Under Secretary for Memorial Affairs publish a
                        national map showing the areas and number of served and unserved rural
                        veterans.
                    3.	 We recommended the Under Secretary for Memorial Affairs establish
                        performance goals for the percentage of rural and urban veterans served.

Management          The Under Secretary for Memorial Affairs concurred with our
Comments            recommendations. NCA will develop a methodology to identify veterans
                    living in rural areas and establish a database that will enable analysis of
                    veteran demographics at the State, regional, and national levels. The Under
                    Secretary stated that with this data, NCA will be able to identify and quantify
                    the number and percentage of served and unserved rural veterans throughout
                    the Nation. NCA will also have the capability to produce a national map
                    showing the areas and number of served and unserved rural veterans. NCA
                    plans to complete these actions by the end of the first quarter of FY 2015.

                    The Under Secretary reported NCA’s rural area methodology and database
                    will enable analysis of service to veterans that will make possible the
                    development of performance measures that address rural and urban veterans.
                    The specific performance measures for these subgroups will be defined
                    within the previously established overall burial access goal of 96 percent.
                    The Under Secretary also provided comments explaining NCA’s viewpoint
                    on aspects of the OIG’s finding. NCA plans to complete these actions by the
                    end of the second quarter of FY 2015.

OIG                 NCA’s planned corrective actions are acceptable. We will monitor NCA’s
Response            progress and follow up on the implementation of our recommendations until
                    all proposed actions are completed. Appendix D provides the full text of the
                    Under Secretary for Memorial Affair’s comments.



VA Office of Inspector General                                                                       7
                                                          Audit of NCA’s Rural Veterans Burial Initiative


Appendix A            Background

Role of NCA           NCA’s primary goal is to ensure that the burial needs of veterans and their
                      eligible family members are met by establishing, operating, and maintaining
                      VA National cemeteries and providing grants for establishing, expanding, or
                      improving State and tribal veterans cemeteries. In FY 2013, NCA reported
                      maintaining approximately 3.2 million gravesites at 131 National cemeteries
                      in 39 states and Puerto Rico, as well as in 33 soldiers’ lots and monument
                      sites. NCA also reported conducting 124,800 interments and processing
                      358,600 applications for headstones and markers for placement in
                      cemeteries. In addition, NCA reported serving nearly 90 percent of the U.S.
                      veteran population with a burial option within 75 miles of their residences.

Rural Veterans 
      In 2011, NCA established the Rural Initiative, targeting eight states that lack
Burial Initiative 
   a National cemetery with available space for first interment. In the targeted
                      states, the Rural Initiative focused on areas unserved by State or tribal
                      organization veterans’ cemeteries funded by the VA or National cemeteries
                      in a bordering state. In addition, NCA determined these states had unserved
                      veteran populations of less than 25,000 within a 75-mile radius of proposed
                      NVBG locations.

                      NCA used the less than 25,000-person population threshold to define a rural
                      area because its analysis determined this threshold would identify locations
                      that provide service to areas with the greatest number of unserved veterans.
                      In addition, NCA reported its 75-mile radius service area standard is based
                      on a review of national cemetery data indicating over 80 percent of people
                      interred in National cemeteries resided within 75 miles of the cemetery at
                      time of death.

                      Where possible, NCA plans to establish NVBGs in public or privately owned
                      cemeteries. The NVBGs will have the same eligibility requirements,
                      maintenance standards, and appearance as VA National cemeteries. In
                      FY 2014, NCA plans to begin constructing NVGBs and expects the eight
                      proposed sites to be open for interments by the end of FY 2017.

VetPop Model 
        VetPop is an actuarial model for veteran population projections developed by
                      VA’s Office of the Actuary. VetPop uses both veteran and survey data from
                      sources including VA, the Department of Defense, the Social Security
                      Administration, the Internal Revenue Service, and the Census Bureau’s
                      American Community Survey. Using these sources, VetPop provides
                      veteran counts by demographic characteristics, such as age, gender, period of
                      service, and race at various geographic levels.




VA Office of Inspector General                                                                         8
                                                        Audit of NCA’s Rural Veterans Burial Initiative


Appendix B          Scope and Methodology

Scope               We conducted our audit from November 2013 through May 2014. We
                    evaluated whether NCA’s Rural Initiative identified the number and
                    percentage of unserved veterans in rural areas. Our scope focused on rural
                    veteran populations in eight states targeted by NCA’s Rural Initiative. We
                    used VA’s VetPop actuarial model for veteran population projections based
                    on FY 2013 state and county-level demographic characteristics.

                    To obtain an understanding of NCA’s Rural Initiative and methodology for
                    identifying served veterans, we interviewed officials from NCA’s Office of
                    Finance and Planning. We also interviewed VA’s Congressional liaison and
                    officials from the Veterans Health Administration’s Office of Rural Health.
                    The audit included a site visit at the VA central office in Washington, DC, to
                    meet with NCA officials.

Methodology         To accomplish our objective, we reviewed Public Laws, House of
                    Representative reports, NCA’s Rural Veterans Burial Access Strategy, the
                    Rural Veterans Burial Initiative, and procedures. For the eight states targeted
                    by the Rural Initiative, we developed maps showing the rural veterans served
                    before, served by, and unserved after NCA’s Rural Initiative. Each map
                    analyzed FY 2013 county veteran population data gathered from VetPop, and
                    the locations of existing state cemeteries and planned NVBGs. We classified
                    counties as rural if the veteran population was less than 25,000, and urban if
                    25,000 and over. See Figure 1 and Appendix C for maps analyzing rural
                    veterans served and unserved in the eight states.

Data Reliability    We used computer-processed FY 2013 VetPop data from VA’s Office of the
                    Actuary to determine State and county veteran populations. Additionally, we
                    verified the State and county veteran populations for accuracy and
                    completeness. We compared VetPop and Census Bureau State veteran
                    population data to ensure totals were reasonable. VA’s Office of the Actuary
                    certified the validity and reliability of VetPop data. We concluded the data
                    from VetPop were appropriate and sufficiently reliable to accomplish the
                    audit objective.

Government 
        Our assessment of internal controls focused on those controls relating to our
Standards
          audit objective. We conducted our audit in accordance with generally
                    accepted government auditing standards. These standards require that we
                    plan and perform the audit to obtain sufficient, appropriate evidence to
                    provide a reasonable basis for our findings and conclusions based on our
                    audit objective. We believe that the evidence obtained provides a reasonable
                    basis for our finding and conclusion based on our audit objective.




VA Office of Inspector General                                                                       9
                                                           Audit of NCA’s Rural Veterans Burial Initiative


Appendix C 	 Geographical Analyses of Rural Veterans Served and
             Unserved
                    Of the approximate 104,000 rural veterans residing in Idaho, we determined
                    about 48,500 in 30 counties were considered unserved before the initiative.
                    We also determined NCA is expected to increase burial access for just over
                    13,500 unserved Idaho rural veterans after the completion of the NVBG in
                    Twin Falls, ID. In addition, with the completion of the NVBG, Idaho is
                    expected to have 22 counties just under 35,000 rural veterans remaining
                    unserved.
                             Figure 2. OIG Analysis of NCA Service Before and After
                                            Rural Initiative—Idaho




                                                                                           75-Mile
                                   State Cemetery            Proposed NVBG
                                                                                           Radius
                                                                                          Unserved
                                    Served before           Served by Rural
                                                                                         after Rural
                                   Rural Initiative             Initiative
                                                                                          Initiative
                                                               County considered served because
                                    Urban County             population center lies within 75-Mile
                                                                             radius
                           Note:   1. Counties considered rural unless noted differently
                                   2. Numbers represent county veteran population
                           Source: VA OIG analysis of FY 2013 VetPop data


VA Office of Inspector General                                                                         10
                                                                   Audit of NCA’s Rural Veterans Burial Initiative


                    Of the approximate 128,000 rural veterans residing in Maine, we determined
                    about 9,400 in two counties were considered unserved before the initiative.
                    We also determined NCA is expected to increase reasonable burial access for
                    all of these about 9,400 unserved rural veterans after completion of the
                    NVBG in Calais, ME.

                         Figure 3. OIG Analysis of NCA Service Before and After Rural 

                                              Initiative—Maine 





                                 State Cemetery                   Planned NVBG                75-Mile Radius

                                 Served before Rural Initiative                  Served by Rural Initiative

                                 County considered served because population center lies within 75-Mile radius
                      Note:      1.   All counties considered rural.
                                 2.   Numbers represent county veteran population.
                      Source: VA OIG analysis of FY 2013 VetPop data



VA Office of Inspector General                                                                                   11
                                                              Audit of NCA’s Rural Veterans Burial Initiative


                     Of the approximate 102,000 rural veterans residing in Montana, we
                     determined about 50,400 in 33 counties were considered unserved before the
                     initiative. We also determined NCA is expected to increase burial access for
                     close to 18,000 unserved rural veterans in Montana after the completion of
                     the NVBG in Laurel, MT. In addition, with the completion of the NVBG,
                     Montana is expected to have 25 counties with nearly 32,400 rural veterans
                     remaining unserved.
                    Figure 4. OIG Analysis of NCA Service Before and After Rural
                                       Initiative—Montana




               State Cemetery                      Proposed NVBG                   75-Mile Radius

               Served before Rural                 Served by Rural                 Unserved after Rural
               Initiative                          Initiative                      Initiative
               County considered served because population center lies within 75-mile radius
       Note:   1.   All counties considered rural
               2.   Numbers represent county veteran population
       Source: VA OIG analysis of FY 2013 VetPop data




VA Office of Inspector General                                                                            12
                                                              Audit of NCA’s Rural Veterans Burial Initiative


                     Of the approximate 56,200 rural veterans residing in North Dakota, we
                     determined about 43,500 in 40 counties were considered unserved before the
                     initiative. We also determined NCA is expected to increase burial access for
                     about 20,500 unserved rural veterans in North Dakota after the completion of
                     the NVBG in Fargo, ND. In addition, with the completion of the NVBG,
                     North Dakota is expected to have 31 counties with just over 23,000 rural
                     veterans remaining unserved.

           Figure 5. OIG Analysis of NCA Service Before and After Rural Initiative—
                                       North Dakota




               State Cemetery                      Proposed NVBG                   75-Mile Radius

               Served before Rural                 Served by Rural                 Unserved after Rural
               Initiative                          Initiative                      Initiative
               County considered served because population center lies within 75-mile radius
       Note:   1.   All counties considered rural
               2.   Numbers represent county veteran population
        Source: VA OIG analysis of FY 2013 VetPop data




VA Office of Inspector General                                                                            13
                                                              Audit of NCA’s Rural Veterans Burial Initiative


                    Of the approximate 101,000 rural veterans residing in Utah, we determined
                    about 31,400 in 19 counties were considered unserved before the initiative.
                    We also determined NCA is expected to increase burial access for nearly
                    15,500 unserved rural veterans in Utah after the completion of the NVBG in
                    Cedar City, UT. In addition, with the completion of the NVBG, Utah is
                    expected to have 13 counties with about 15,900 rural veterans remaining
                    unserved.

                             Figure 6: OIG Analysis of NCA Service Before and After 

                                            Rural Initiative—Utah





                                  State Cemetery            Proposed NVBG               75-Mile Radius
                                  Served before             Served by Rural             Unserved after
                                  Rural Initiative          Initiative                  Rural Initiative
                                  Urban County              County considered served because
                                                            population center lies within 75-mile radius
                          Note:    1.   Counties considered rural unless noted differently
                                   2.   Numbers represent county veteran population
                          Source: VA OIG analysis of FY 2013 VetPop data


VA Office of Inspector General                                                                             14
                                                              Audit of NCA’s Rural Veterans Burial Initiative


                    Of the approximate 303,000 rural veterans residing in Wisconsin, we
                    determined about 62,100 in 24 counties were considered unserved before the
                    initiative. We also determined NCA is expected to increase burial access for
                    just under 18,500 unserved rural veterans in Wisconsin after completing the
                    NVBG in Rhinelander, WI. In addition, with the completion of the NVBG,
                    Wisconsin is expected to have 15 counties with about 43,600 rural veterans
                    remaining unserved.

                          Figure 7. OIG Analysis of NCA Service Before and After Rural 

                                             Initiative—Wisconsin





                                 State Cemetery                 Proposed NVBG               75-Mile Radius

                                 Served before Rural             Served by Rural              Unserved after
                                 Initiative                      Initiative                   Rural Initiative
                                 Urban County                    County considered served because population
                                                                 center lies within 75-mile radius
                        Note:    1.   Counties considered rural unless noted differently
                                 2.   Numbers represent county veteran population
                      Source: VA OIG analysis of FY 2013 VetPop data


VA Office of Inspector General                                                                                   15
                                                             Audit of NCA’s Rural Veterans Burial Initiative


                    Of the approximate 56,500 rural veterans residing in Wyoming, we
                    determined close to 47,100 in 19 counties were considered unserved before
                    the initiative. We also determined NCA is expected to increase burial access
                    for about 19,900 unserved rural veterans in Wyoming after the completion of
                    the NVBG in Cheyenne, WY. In addition, with the completion of the
                    NVBG, Wyoming is expected to have 15 counties with just over 27,200 rural
                    veterans remaining unserved.

                           Figure 8: OIG Analysis of NCA Service Before and After Rural 

                                              Initiative—Wyoming 





                            State Cemetery           Proposed NVBG             75-Mile Radius

                            Served before            Served by Rural
                                                                               Unserved after Rural Initiative
                            Rural Initiative         Initiative
                   Note:    1.   All counties considered rural
                            2.   Numbers represent county veteran population
                   Source: VA OIG analysis of FY 2013 VetPop data




VA Office of Inspector General                                                                             16
                                                                  Audit of NCA’s Rural Veterans Burial Initiative


Appendix D             Under Secretary for Memorial Affairs Comments



                  Department of                                Memorandum
                  Veterans Affairs

          Date:    June 18, 2014

         From:     Under Secretary for Memorial Affairs (40)

          Subj:    NCA Comments – Draft Report, Audit of Service to Rural Veterans Project
                   Number 2013-03468-R3-0176

           To:     Assistant Inspector General for Audits and Evaluations (52)


                   Attached are the National Cemetery Administration’s comments on findings and
                   concurrence with recommendations in the Office of Inspector General report,
                   “Audit of Service to Rural Veterans,” dated May 16, 2014. Our point of contact is
                   Mr. Ronald E. Walters, Acting Principal Deputy Under Secretary for Memorial
                   Affairs. Mr. Walters may be contacted by phone at (202) 461-6738 or by email at
                   ronald.waters@va.gov.




                   Steve L. Muro


                   Attachment

                   cc: Director, Atlanta Audit and Evaluation Operations Division (52AT)




VA Office of Inspector General                                                                                17
                                                            Audit of NCA’s Rural Veterans Burial Initiative


                                                                                               Attachment

                          Audit of NCA's Rural Veterans Burial Initiative
                     Project Number 2013-03468-R3-0176, Issued May 16, 2014


                           We recommended the Under Secretary for Memorial Affairs establish a
Recommendation 1:
                           methodology to identify the number and percentage of served and
                           unserved rural veterans throughout the Nation.
                           Please indicate your concurrence or non-concurrence with the
OIG Comment:
                           recommendation below.
                           NCA concurs with this recommendation.

                           NCA will develop a methodology to identify veterans living in rural areas.
                           This will enable NCA to more easily identify rural veterans on a national level.

                           NCA currently is in the process of establishing a new database that will
                           enable analysis of veteran demographics at the state, regional and national
                           levels. The database will identify each county in the country as either being
                           served or unserved by a VA national or VA-funded state veterans cemetery
                           and the specific cemeteries that provide service to each served county. The
VA Response:               database will also include county-level veteran population estimates from
                           VA’s VetPop2011 model. Paired with NCA’s new rural area definition, this
                           database will enable NCA to quickly and comprehensively identify served
                           and unserved veterans by county at the state, regional, and national levels.
                           Through this capability, NCA will be able to identify and quantify the number
                           and percentage of served and unserved rural veterans throughout the
                           Nation.

                           NCA plans to complete the validation and activation of the database by the
                           end of the first quarter of Fiscal Year 2015.

                           We recommended the Under Secretary for Memorial Affairs publish a
Recommendation 2:          national map showing the areas and number of served and unserved
                           rural veterans.

                           Please indicate your concurrence or non-concurrence with the
OIG Comment:
                           recommendation below.

                           NCA concurs with this recommendation.

                           The database described in Recommendation 1 will include veteran
                           population estimates at the county level from VA’s VetPop2011 model and
                           will tie into NCA’s mapping software. Once completed, NCA will have the
VA Response:               capability to produce a national map showing the areas and number of
                           served and unserved rural veterans in accordance with its newly developed
                           rural area methodology.

                           NCA plans to complete the validation and activation of the database by the
                           end of the first quarter of Fiscal Year 2015.

                           We recommended the Under Secretary for Memorial Affairs establish
Recommendation 3:          performance goals for the percentage of rural and urban veterans
                           served.



VA Office of Inspector General                                                                           18
                                                           Audit of NCA’s Rural Veterans Burial Initiative



                           Please indicate your concurrence or non-concurrence with the
OIG Comment:
                           recommendation below.

                           NCA concurs in part with this recommendation.

                           NCA’s rural area methodology and database will enable analysis of service
VA Response:               to veterans that will make possible the development of performance
                           measures that address rural and urban veterans. The specific performance
                           measures for these subgroups will be defined within the previously
                           established overall burial access goal of 96 percent by the end of the second
                           quarter of Fiscal Year 2015.

                           NCA’s Rural Initiative Needs To Identify the Number and Percentage of
Draft Report Finding:
                           Rural Veterans Needing Burial Options

                           “We determined that prior to the planned Rural Initiative NVBGs, NCA was
                           not providing reasonable access to a burial option for approximately
Finding:                   302,000 (34 percent) of about 888,000 rural veterans in the initiative’s
(Page 2, Paragraph 1)      8 targeted states. When completed, NCA’s Rural Initiative is expected to
                           decrease the total number of unserved rural veterans by nearly
                           120,000 (40 percent) to about 182,000 in these 8 states.”

                           This analysis is based on OIG’s definition of a rural area and estimate of the
                           number of veterans that will be served by the eight Rural Initiative sites.
                           Using its current service area methodology, NCA estimates that more than
                           133,000 veterans will be served by the eight sites.

                           OIG’s analysis is limited to only the eight states that are part of the Rural
                           Initiative, which have low population totals and less cemetery coverage.
VA Comments:
                           Historically, NCA has pursued a strategy of locating national cemeteries in
                           areas of the country with the greatest need. However, these cemeteries
                           serve not only major metropolitan areas, but rural veterans in the surrounding
                           areas that lie within each cemetery’s 75-mile service area. Accordingly, NCA
                           believes that many rural veterans are served by existing national and VA-
                           funded state cemeteries, particularly in areas such as the Northeastern
                           United States and Florida, where current cemetery coverage is at or near
                           100% of the state’s population.

                           “NCA lacked a specific performance measurement that evaluated NCA’s
                           progress towards increasing service to rural veterans. As a result, NCA
                           cannot evaluate the level of service provided to veterans and their families
Finding:
                           residing in rural areas throughout the eight targeted states and the entire
(Page 2, Paragraph 2)
                           Nation. Without this specific veteran population information, NCA cannot
                           adequately report to Congress and other stakeholders its performance on
                           serving rural veterans.”

                           NCA agrees that it is currently unable to calculate a percentage of rural
                           veterans served; however, NCA is able to evaluate the level of service
                           provided to veterans and their families residing in rural areas in the eight
VA Comments:               targeted states. Beginning with VA’s FY 2013 Budget, NCA has reported to
                           Congress that, using the methodology of identifying areas with less than
                           25,000 veterans within a 75-mile service area standard, more than 133,000
                           veterans will be served by the eight sites of the Rural Initiative.



VA Office of Inspector General                                                                            19
                                                            Audit of NCA’s Rural Veterans Burial Initiative



                           “The establishment of NVBGs is expected to decrease the total number of
Finding:
                           rural veterans in these 8 states who do not have reasonable access to a
(Page 2, Paragraph 4)
                           burial option from approximately 302,000 to about 182,000.”

                           This estimate is based on OIG’s definition of a rural area as one in which
                           fewer than 25,000 veterans reside within a county. This methodology differs
                           from NCA’s Rural Initiative threshold of fewer than 25,000 veterans within a
VA Comments:
                           75-mile service area. As a result, OIG’s estimate of the number of veterans
                           that will be served by the eight Rural Initiative sites is different from NCA’s
                           calculation.

                           “Our analysis found that once NCA completes the NVBGs, the number of
Finding:
                           unserved rural veterans in the 8 states is expected to range from 0 in Maine
(Page 3, Paragraph 1)
                           to about 43,600 in Wisconsin.”

                           Wisconsin illustrates one major difference in the county-level approach to
                           identifying rural veterans as opposed to NCA’s service area approach. The
                           LaCrosse, Wisconsin area was initially considered as a possible location for
                           a Rural Initiative site in part because no individual county in the surrounding
                           area has more than 10,000 veterans. However, the several counties in
                           Wisconsin, Minnesota, and Iowa that would fall within the 75-mile service
VA Comments:               area of a potential cemetery in LaCrosse combined were found to have in
                           excess of 50,000 veterans. While this area would be considered as rural
                           based on a county-level definition, taking into account all of the veterans
                           living within 75 miles of LaCrosse, NCA determined that the LaCrosse,
                           Wisconsin area was not best suited for a rural cemetery and that the
                           veterans residing in this area could be better served by a future state
                           veterans cemetery in Wisconsin.


                           “We used NCA’s 75 mile radius methodology for identifying served rural
Finding:                   veterans in the eight targeted states. To identify the unserved rural veterans,
(Page 3, Paragraph 2)      we used NCA’s veteran population threshold of less than 25,000 to classify
                           counties as rural and considered populations of 25,000 and over as urban.”


                           NCA wishes to clarify that OIG’s applications of NCA’s rural veteran
                           population threshold of less than 25,000 veterans living within a 75-mile
VA Comments:
                           service area is different from NCA’s methodology, which identifies veterans
                           within a 75-mile service area rather than at the county level.

                           “After the completion of the NVBGs, we determined about 182,000 rural
Finding:                   veterans would remain unserved. However, NCA’s methodology did not
(Page 3, Paragraph 3)      allow NCA to identify the remaining about 182,000 veterans who would
                           remain unserved in rural areas after completing the Rural Initiative.”


                           NCA’s service area methodology can be applied on a state-by-state basis to
                           identify veterans in rural areas who will remain unserved after completing the
                           Rural Initiative. For example, in Nevada, the remaining counties that are
VA Comments:               considered to be unserved after the completion of the Rural Initiative site in
                           Elko have a combined veteran population of less than 12,000. This figure is
                           below NCA’s 25,000 threshold; therefore, NCA would consider all remaining
                           unserved veterans in Nevada to be in rural areas.




VA Office of Inspector General                                                                           20
                                                            Audit of NCA’s Rural Veterans Burial Initiative



Finding:                   “NCA officials agreed with our methodology for identifying the number and
(Page 3, Paragraph 3)      percentage of unserved veterans residing in rural areas.”


                           NCA understood OIG’s methodology for identifying the number and
                           percentage of unserved veterans residing in rural areas and agreed that it
VA Comments:
                           was one possible methodology for identifying the number and percentage of
                           unserved veterans residing in rural areas.


                           “For example, our analysis of Montana shows NCA would need to plot a 75-
                           mile radius around approximately 280 towns or cities while identifying
                           overlapping areas and ensuring veteran populations are counted only once.
Finding:
                           NCA acknowledged this when it reported to Congress that there are an
(Page 5, Paragraph 4)
                           unlimited number of potential service areas that could be analyzed as being
                           rural by simply moving the focal point of the 75-mile radius from one potential
                           town or city to another.”


                           NCA reported to Congress under PL 113-6 that “there are an unlimited
                           number of potential service areas that could be analyzed as being rural that
                           could be constructed simply by moving the focal point of a circle with a 75-
                           mile radius from one town to another.” This statement was made in
                           response to Congress’ request that VA provide “data identifying the number
VA Comments:
                           of and geographic areas where rural veterans are not currently served by
                           national or existing state cemeteries.” Theoretically, any town could be a
                           potential location for a cemetery; therefore, the number of potential locations
                           in which there are unserved rural veterans would equate to the number of
                           towns in rural areas.


                           “VA’s strategic plan requires the establishment of goals that measure the
                           level of performance to be achieved. Also, the Government Performance
Finding:                   and Results Modernization Act of 2010, requires Federal agencies to
(Page 6, Paragraph 1)      establish performance goals expressed in an objective, quantifiable, and
                           measurable form. In addition, the act requires a performance indicator be
                           established to assess the progress of the goal.”


                           Since the enactment of the Government Performance and Results Act of
                           1993 (GPRA), NCA has developed strategic plans that meet the criteria of
                           this legislation and the Government Performance and Results Modernization
                           Act of 2010 (GPRMA). One of NCA’s most important strategic goals is to
                           “ensure that the burial needs of veterans and their eligible family members
                           are met.” This goal includes a performance indicator that measures the
                           percent of veterans served by a burial option within a reasonable (75-miles)
VA Comments:               distance of their residence. NCA sets annual goals for this measure as part
                           of its annual budget request. NCA’s strategic goal is to serve 96% of
                           veterans within a reasonable distance of their residence.

                           NCA accepts OIG’s recommendation to establish performance goals for the
                           percentage of rural and urban veterans served, within the previously
                           established overall access goal of 96 percent, and will include these goals as
                           part of NCA’s strategy.




VA Office of Inspector General                                                                           21
                                                            Audit of NCA’s Rural Veterans Burial Initiative



                           “NCA cannot evaluate the level of service provided to veterans and their
                           families residing in rural areas throughout the eight targeted states and the
Finding:
                           entire Nation. Without this specific veteran population information, NCA
(Page 7, Paragraph 1)
                           cannot adequately report to Congress and other stakeholders its
                           performance on serving rural veterans.”

                           NCA concurs that it cannot adequately report to Congress and other
                           stakeholders its performance on serving rural veterans nationwide.
                           However, NCA has reported to Congress and other stakeholders on several
                           occasions its progress on serving rural veterans in the eight states that are
                           part of the Rural Initiative. NCA estimates that more than 133,000 veterans
VA Comments:
                           will be served by the eight National Veterans Burial Grounds, the first of
                           which has been established in Laurel, Montana. These new facilities will
                           increase the percent of veterans served by a burial option within a
                           reasonable distance of their residency by approximately 0.62% of the total
                           US veteran population.

                           “We also determined NCA is expected to increase burial access for just over
                           13,500 unserved Idaho rural veterans after the completion of the NVBG in
Finding:
                           Twin Falls, ID. In addition, with the completion of the NVBG, Idaho is
(Page 10, Paragraph 1)
                           expected to have 22 counties just under 35,000 rural veterans remaining
                           unserved.”

                           NCA originally identified Idaho Falls as the location for the NVBG in Idaho.
                           NCA subsequently received an application for a new state veterans’
                           cemetery in Idaho Falls. Accordingly, NCA moved the location for the Idaho
                           NVBG to Twin Falls to maximize service coverage in Idaho. NCA estimates
                           that 11 counties will fall within the service area of the new state cemetery in
                           Idaho Falls.

VA Comments:               Using the figures provided in OIG’s map (Page 10, Figure 2), NCA estimates
                           that the new Idaho Falls state cemetery will provide service within a
                           reasonable distance to approximately 21,385 Idaho veterans, reducing OIG’s
                           estimated number and percent of unserved Idaho veterans to 13,553 and
                           13%, respectively. NCA also calculates that the Idaho Falls state cemetery
                           would reduce OIG’s estimates of the number and percent of unserved
                           veterans in the eight Rural Initiative states to 160,615 and 18%, respectively
                           (Page 3, Table 2).




VA Office of Inspector General                                                                             22
                                              Audit of NCA’s Rural Veterans Burial Initiative


Appendix E          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	      For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.
                                         Kent Wrathall, Director
                      Acknowledgments
                                         George Boyer
                                         Jill Holston
                                         Annie Li
                                         Leon Roberts
                                         Michael Schiltz
                                         Al Tate
                                         Briana Webster




VA Office of Inspector General                                                            23
                                                       Audit of NCA’s Rural Veterans Burial Initiative


Appendix F          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget




               This report is available on our Web site at www.va.gov/oig




VA Office of Inspector General                                                                     24
